September 22, 2020
Via Electronic Filing

Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First St., NE
Washington, DC 20543
RE: William P. Barr, Attorney General, et al., v. Esteban Aleman Gonzalez, et al., (20-234)
Dear Mr. Harris:
Respondents write to request a 60-day extension of time to file a brief in opposition to the
petition for writ of certiorari that was submitted on September 4, 2020. The response is currently
due on October 13, 2020. Specifically, Respondents seek to extend the response time from
October 13, 2020 to December 14, 2020. Respondents seek this extension in light of counsels’
competing personal and professional obligations. First and foremost, the current public health
emergency related to COVID-19 has forced the closure of each of the offices where
Respondents’ counsel normally work. In addition, the pandemic has forced closures of schools,
camps, and child care facilities, which requires Respondents’ counsel to care for minor children
during this time. Meanwhile, in this context of reduced capacity, counsel for Respondents remain
committed to other upcoming filings and arguments.
Petitioners through counsel have indicated they do not object to this request. Thank you for your
attention to this matter.
Sincerely,

Matt Adams
Counsel for Respondents
matt@nwirp.org
cc:

Jeffrey B. Wall, Counsel for Petitioners
Jeffrey Atkins, Deputy Clerk
Danny Bickell, Deputy Clerk

